No.
In the

Supreme Court of the United States
ANTHONY LEON WAITS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Eighth Circuit
PETITION FOR WRIT OF CERTIORARI

Brett D. Watson
BRETT D. WATSON, ATTORNEY AT LAW, PLLC
P.O. Box 707
Searcy, AR 72145-0707
(501) 281-2468
watson@bdwpllc.com
Counsel for Petitioner
June 9, 2021

ii
QUESTION PRESENTED
Federal Rule of Criminal Procedure 32.2(a)
prohibits a district court from entering a forfeiture
judgment “unless the indictment or information
contains notice to the defendant that the government
will seek the forfeiture of property as part of any
sentence in accordance with the applicable statute.”
The indictment against Waits did not give notice of
the

applicable

statute;

it

gave

notice

of

an

inapplicable statute. The district court nevertheless
entered a forfeiture judgment against Waits. The
Eighth Circuit affirmed, finding that all Rule 32.2(a)
requires is notice that the government intends to seek
forfeiture without giving notice of the applicable
statute. The Seventh and Ninth Circuits agree with
the Eighth Circuit, but the Second Circuit reads Rule
32.2(a) to mean that a defendant is entitled to know
not only that the government seeks forfeiture but also
the statutory basis for doing so.
The question presented is:

Does Federal Rule of Criminal Procedure 32.2(a)
prohibit a district court from entering a forfeiture
judgment when the indictment does not give notice of
the applicable forfeiture statute?

iv
STATEMENT OF RELATED PROCEEDINGS
The following cases from the United States
District Court for the Eastern District of Arkansas
and the United States Court of Appeals for the
Eighth Circuit are directly related to this case as
“directly related” is defined in this Court’s Rule
14.1(b)(iii):
• United States of America v. Gladys Elise
King, Jacqueline D. Mills, Tonique D.
Hatton, and Anthony Leon Waits,No. 4:14cr-250 (E.D. Ark.) (judgment as to Anthony
Leon Waits entered Oct. 23, 2017; order of
forfeiture entered May 4, 2017; and
amended order of forfeiture entered Aug.
22, 2019);
• United States of America v. Anthony Leon
Waits, No. 17-3399 (8th Cir.) (judgment
entered March 29, 2019);
• United States of America v. Anthony Leon
Waits, No. 19-3382 (8th Cir.) (judgment
entered Dec. 8, 2020);

v
• United States of America v. Jacqueline
Mills, No. 17-3762 (8th Cir.) (judgment
entered Mar. 29, 2019);
• United States of America v. Jacqueline
Mills, No. 20-1889 (8th Cir.) (judgment
entered Jan. 19, 2021);
• United States of America v. Rosie Farr and
John

Farr,

No.

20-2790

(8th

Cir.)

(judgment not yet entered);
• United States of America v. Jacqueline
Mills, No. 21-1085 (8th Cir.) (judgment
entered April 27, 2021).
There are no other proceedings in state or federal
trial or appellate courts directly related to this case
within the meaning of this Court’s Rule 14.1(b)(iii).

vi
TABLE OF CONTENTS
QUESTION PRESENTED .......................................... ii
STATEMENT OF RELATED PROCEEDINGS....... iv
TABLE OF CONTENTS ............................................ vi
TABLE OF AUTHORITIES .................................... x
PETITION FOR WRIT OF CERTIORARI ................ 1
OPINIONS BELOW ....................................................1
JURISDICTION ..........................................................1
RULE INVOLVED ..................................................... 2
STATEMENT OF THE CASE ................................... 26
A. Federal Rule of Criminal
Procedure 32.2(a) ........................................ 26
B.

Factual and Procedural Background.......... 27

vii
REASONS TO GRANT THE PETITION ................29
I.

The Eighth Circuit widened a circuit split
on the meaning of Federal Rule of Criminal
Procedure 32.2(a) ..............................................29

II. The Eighth Circuit disregarded the text
of Federal Rule of Criminal
Procedure 32.2(a) ................................................30
III. The issue is important because Federal Rule
of Criminal Procedure 32.2(a) governs the
many criminal forfeitures in federal court........31
APPENDIX
Appendix A
Opinion, United States Court of Appeals for the
Eighth Circuit, United States of America v.
Waits, No. 19-3382 (December 8, 2020).....App. 1

viii
Appendix B
Judgment, United States Court of Appeals for
the Eighth Circuit, United States of America v.
Waits, No. 19-3382 (December 8, 2020)….App. 3
Appendix C
Amended Order of Forfeiture, United States
District Court for the Eastern District of
Arkansas, United States of America v. Waits,
No. 4:14-CR-250 (Aug. 22, 2019).................App. 4
Appendix D
Opinion, United States Court of Appeals for the
Eighth Circuit, United States of America v.
Waits, No. 17-3399 (Mar. 29, 2019)...........App. 6
Appendix E
Judgment, United States District Court for the
Eastern District of Arkansas, United States of
America v. Waits, No. 4:14-CR-250

ix
(Oct. 23, 2017)............................................App. 17
Appendix F
Order of Forfeiture, United States District Court
for the Eastern District of Arkansas, United
States of America v. Waits, No. 4:14-CR-250
(May 4, 2017)..............................................App. 26
Appendix G
Order denying rehearing, United States Court of
Appeals for the Eighth Circuit, United States of
America v. Waits, No. 19-3382
(Jan. 12, 2021)...............................................App. 28
Appendix H
Third Superseding Indictment, United States
District Court for the Eastern District of
Arkansas, United States of America v. Waits,
No. 4:14-CR-250 (Dec. 8, 2016)...................App. 29

x

TABLE OF AUTHORITIES
Cases
City of San Antonio v. Hotels.com, L.P.,
593 U.S. –— (2021) ............................................ 11
United States v. Annabi,
746 F.3d 83 (2d Cir. 2014)............................. 9, 11
United States v. Silvious,
512 F.3d 364 (7th Cir. 2008) ...................... 10, 11
United States v. Soto,
915 F.3d 675 (9th Cir. 2019) ...................... 10, 11
United States v. Waits,
830 Fed. App’x 790 (8th Cir. 2020) .................... 1
Statutes and Rules
18 U.S.C. §1349 ......................................................... 10
18 U.S.C. §3231 ......................................................... 10
18 U.S.C. §3237 ......................................................... 10
28 U.S.C. §1254(1)...................................................... 1
Fed. R. Crim. P. 32 ............................................ passim

11

PETITION FOR WRIT OF CERTIORARI
OPINIONS BELOW
The Eighth Circuit’s December 8, 2020 opinion is
available at 830 Fed. App’x 790, and is reproduced at
App. 1. The United States District Court for the
Eastern District of Arkansas’s August 22, 2019
amended order of forfeiture is not published in an
official or unofficial reporter, but it is at App. 4. The
Eighth Circuit’s March 29, 2019 opinion is available at
919 F.3d 1090, and is reproduced at App. 6. The
United States District Court for the Eastern District
of Arkansas’s judgment and order of forfeiture are not
listed in an official or unofficial reporter, but they are,
respectively, at App. 17 and App. 26.
JURISDICTION
The Eighth Circuit issued judgment on December
8, 2020, and denied rehearing on January 12, 2021.

12
App. 3, 28. On March 19, 2020, this Court extended
the deadline to file any certiorari petition due on or
after that date to 150 days. Waits then timely filed
this petition, and this Court thus has jurisdiction
under 28 U.S.C. §1254(1).
RULE INVOLVED
A. Federal Rule of Criminal Procedure 32.2
Criminal Forfeiture
(a) NOTICE TO THE DEFENDANT. A court must not
enter a judgment of forfeiture in a criminal proceeding
unless the indictment or information contains notice
to the defendant that the government will seek the
forfeiture of property as part of any sentence in
accordance with the applicable statute. The notice
should not be designated as a count of the indictment
or information. The indictment or information need
not identify the property subject to forfeiture or specify

13
the amount of any forfeiture money judgment that the
government seeks.
(b) ENTERING

A

PRELIMINARY

ORDER

OF

FORFEITURE.
(1) Forfeiture Phase of the Trial.
(A) Forfeiture Determinations. As soon as
practical after a verdict or finding of guilty, or
after a plea of guilty or nolo contendere is
accepted, on any count in an indictment or
information

regarding

which

criminal

forfeiture is sought, the court must determine
what property is subject to forfeiture under the
applicable statute. If the government seeks
forfeiture of specific property, the court must
determine

whether

the

government

has

established the requisite nexus between the
property and the offense. If the government
seeks a personal money judgment, the court

14
must determine the amount of money that the
defendant will be ordered to pay.
(B) Evidence and Hearing. The court’s
determination may be based on evidence
already in the record, including any written
plea agreement, and on any additional evidence
or information submitted by the parties and
accepted by the court as relevant and reliable.
If the forfeiture is contested, on either party’s
request the court must conduct a hearing after
the verdict or finding of guilty.
(2) Preliminary Order.
(A) Contents of a Specific Order. If the court
finds that property is subject to forfeiture, it
must promptly enter a preliminary order of
forfeiture setting forth the amount of any
money judgment, directing the forfeiture of
specific property, and directing the forfeiture of

15
any substitute property if the government has
met the statutory criteria. The court must enter
the order without regard to any third party’s
interest in the property. Determining whether
a third party has such an interest must be
deferred until any third party files a claim in an
ancillary proceeding under Rule 32.2(c).
(B) Timing. Unless doing so is impractical,
the court must enter the preliminary order
sufficiently in advance of sentencing to allow
the parties to suggest revisions or modifications
before the order becomes final as to the
defendant under Rule 32.2(b)(4).
(C) General Order. If, before sentencing, the
court cannot identify all the specific property
subject to forfeiture or calculate the total
amount of the money judgment, the court may
enter a forfeiture order that:

16
(i) lists any identified property;
(ii) describes other property in general
terms; and
(iii) states that the order will be amended
under Rule 32.2(e)(1) when additional specific
property is identified or the amount of the
money judgment has been calculated.
(3) Seizing Property. The entry of a preliminary
order of forfeiture authorizes the Attorney General
(or a designee) to seize the specific property subject
to forfeiture; to conduct any discovery the court
considers proper in identifying, locating, or
disposing of the property; and to commence
proceedings

that

comply

with

any

statutes

governing third-party rights. The court may
include in the order of forfeiture conditions
reasonably necessary to preserve the property’s
value pending any appeal.

17
(4) Sentence and Judgment.
(A) When Final. At sentencing—or at any
time

before

sentencing

consents—the

if

preliminary

the

defendant

forfeiture

order

becomes final as to the defendant. If the order
directs

the

defendant

to

forfeit

specific

property, it remains preliminary as to third
parties until the

ancillary proceeding is

concluded under Rule 32.2(c).
(B) Notice and Inclusion in the Judgment.
The court must include the forfeiture when
orally announcing the sentence or must
otherwise ensure that the defendant knows of
the forfeiture at sentencing. The court must
also include the forfeiture order, directly or by
reference, in the judgment, but the court’s
failure to do so may be corrected at any time
under Rule 36.

18
(C) Time to Appeal. The time for the
defendant or the government to file an appeal
from the forfeiture order, or from the court’s
failure to enter an order, begins to run when
judgment is entered. If the court later amends
or declines to amend a forfeiture order to
include additional property under Rule 32.2(e),
the defendant or the government may file an
appeal regarding that property under Federal
Rule of Appellate Procedure 4(b). The time for
that appeal runs from the date when the order
granting or denying the amendment becomes
final.
(5) Jury Determination.
(A) Retaining the Jury. In any case tried
before a jury, if the indictment or information
states

that

the

government

is

seeking

forfeiture, the court must determine before the

19
jury begins deliberating whether either party
requests that the jury be retained to determine
the forfeitability of specific property if it returns
a guilty verdict.
(B) Special Verdict Form. If a party timely
requests to have the jury determine forfeiture,
the government must submit a proposed
Special Verdict Form listing each property
subject to forfeiture and asking the jury to
determine

whether

the

government

has

established the requisite nexus between the
property and the offense committed by the
defendant.
(6) Notice of the Forfeiture Order.
(A) Publishing and Sending Notice. If the
court orders the forfeiture of specific property,
the government must publish notice of the
order and send notice to any person who

20
reasonably appears to be a potential claimant
with standing to contest the forfeiture in the
ancillary proceeding.
(B) Content of the Notice. The notice must
describe the forfeited property, state the times
under the applicable statute when a petition
contesting the forfeiture must be filed, and
state the name and contact information for the
government attorney to be served with the
petition.
(C) Means of Publication; Exceptions to
Publication Requirement. Publication must
take place as described in Supplemental Rule
G(4)(a)(iii) of the Federal Rules of Civil
Procedure, and may be by any means described
in Supplemental Rule G(4)(a)(iv). Publication is
unnecessary if any exception in Supplemental
Rule G(4)(a)(i) applies.

21
(D) Means of Sending the Notice. The notice
may be sent in accordance with Supplemental
Rules G(4)(b)(iii)–(v) of the Federal Rules of
Civil Procedure.
(7) Interlocutory Sale. At any time before entry
of a final forfeiture order, the court, in accordance
with Supplemental Rule G(7) of the Federal Rules
of Civil Procedure, may order the interlocutory sale
of property alleged to be forfeitable.
(c) ANCILLARY PROCEEDING; ENTERING

A

FINAL

ORDER OF FORFEITURE.
(1) In General. If, as prescribed by statute, a
third party files a petition asserting an interest in the
property to be forfeited, the court must conduct an
ancillary proceeding, but no ancillary proceeding is
required to the extent that the forfeiture consists of a
money judgment.

22
(A) In the ancillary proceeding, the court
may, on motion, dismiss the petition for lack of
standing, for failure to state a claim, or for any
other lawful reason. For purposes of the motion,
the facts set forth in the petition are assumed
to be true.
(B) After disposing of any motion filed under
Rule 32.2(c)(1)(A) and before conducting a
hearing on the petition, the court may permit
the parties to conduct discovery in accordance
with the Federal Rules of Civil Procedure if the
court determines that discovery is necessary or
desirable to resolve factual issues. When
discovery ends, a party may move for summary
judgment

under

Federal

Rule

of

Civil

Procedure 56.
(2) Entering a Final Order. When the ancillary
proceeding ends, the court must enter a final order of

23
forfeiture by amending the preliminary order as
necessary to account for any third-party rights. If no
third party files a timely petition, the preliminary
order becomes the final order of forfeiture if the court
finds that the defendant (or any combination of
defendants convicted in the case) had an interest in
the property that is forfeitable under the applicable
statute. The defendant may not object to the entry of
the final order on the ground that the property
belongs, in whole or in part, to a codefendant or third
party; nor may a third party object to the final order
on the ground that the third party had an interest in
the property.
(3) Multiple Petitions. If multiple third-party
petitions are filed in the same case, an order
dismissing or granting one petition is not appealable
until rulings are made on all the petitions, unless the
court determines that there is no just reason for delay.

24

(4) Ancillary

Proceeding

Not

Part

of

Sentencing. An ancillary proceeding is not part of
sentencing.
(d) STAY PENDING APPEAL. If a defendant appeals
from a conviction or an order of forfeiture, the court may
stay the order of forfeiture on terms appropriate to
ensure that the property remains available pending
appellate review. A stay does not delay the ancillary
proceeding or the determination of a third party’s rights
or interests. If the court rules in favor of any third party
while an appeal is pending, the court may amend the
order of forfeiture but must not transfer any property
interest to a third party until the decision on appeal
becomes final, unless the defendant consents in writing
or on the record.
(e) SUBSEQUENTLY
SUBSTITUTE PROPERTY.

LOCATED

PROPERTY;

25
(1) In General. On the government’s motion, the
court may at any time enter an order of forfeiture or
amend an existing order of forfeiture to include
property that:
(A) is subject to forfeiture under an existing
order of forfeiture but was located and
identified after that order was entered; or
(B) is substitute property that qualifies for
forfeiture under an applicable statute.
(2) Procedure. If the government shows that the
property is subject to forfeiture under Rule 32.2(e)(1),
the court must:
(A) enter an order forfeiting that property,
or amend an existing preliminary or final order
to include it; and
(B) if a third party files a petition claiming
an interest in the property, conduct an ancillary
proceeding under Rule 32.2(c).

26

(3) Jury Trial Limited. There is no right to a
jury trial under Rule 32.2(e).

STATEMENT OF THE CASE
A. Federal Rule of Criminal Procedure
32.2(a)
Under Federal Rule of Criminal Procedure
32.2(a), a district court “must not enter a judgment of
forfeiture in a criminal proceeding unless the
indictment or information contains notice to the
defendant that the government will seek the forfeiture
of property as part of any sentence in accordance with
the applicable statute.”
The Second Circuit reads the rule to mean “a
criminal defendant has the right to know not only that
forfeiture is being sought, but also the statutory basis
for forfeiture.” United States v. Annabi, 746 F.3d 83,

27
85 (2d Cir. 2014). But the Eighth Circuit, consistent
with the Seventh and Ninth Circuits, concluded here
that all Rule 32.2(a) requires is that the indictment let
a defendant know that the government seeks
forfeiture, not the statute under which forfeiture is
sought. App. 1; United States v. Soto, 915 F.3d 675, 681
(9th Cir. 2019); United States v. Silvious, 512 F.3d 364,
370 (7th Cir. 2008).
B. Factual and Procedural Background
The operative indictment alleged that Anthony
Waits and others, in violation of 18 U.S.C. §§ 1349 and
3237, schemed to fraudulently obtain USDA childnutrition

funds administered

by

the Arkansas

Department of Human Services. App. 29–42. Because
the allegation was that Waits had violated federal law,
the district court had jurisdiction. 18 U.S.C. § 3231.
Only one of the 54 counts was against Waits: a charge
that he had conspired to commit wire fraud. App. 29–

28
42. The jury found Waits guilty, the district court
entered

judgment

(including

a

$3,316.280.85

forfeiture order), and Waits appealed. App. 17. In that
first appeal, the Eighth Circuit affirmed the conviction
but remanded to the district court to address the
indictment’s citation to an incorrect forfeiture statute.
App. 6. On remand, the district court reduced the
forfeiture amount to $1,163,134.25 and entered an
amended forfeiture order. App. 4.
Waits again appealed. He argued that Rule
32.2(a) prohibits a district court from entering a
judgment of forfeiture “unless the indictment or
information contains notice to the defendant that the
government will seek the forfeiture of property as part
of any sentence in accordance with the applicable
statute.” The Eighth Circuit rejected that argument
and concluded that it was enough under Rule 32.2(a)

29
that “Waits had adequate notice that the government
intended to seek forfeiture.” App. 2.
The Eighth Circuit denied Waits’s petition for
rehearing. App. 28. He now petitions this Court for a
writ of certiorari.

REASONS TO GRANT THE PETITION
I.

The Eighth Circuit widened a circuit split on
the meaning of Federal Rule of Criminal
Procedure 32.2(a).
Federal circuit courts of appeal are divided on the

meaning of Rule 32.2(a). The Second Circuit reads the
rule to mean “a criminal defendant has the right to
know not only that forfeiture is being sought, but also
the statutory basis for forfeiture.” Annabi, 746 F.3d at
85. But the Seventh, Eighth, and Ninth Circuits read
the rule to mean that all Rule 32.2(a) requires is that
the indictment let a defendant know that the

30
government seeks forfeiture, not the statute under
which forfeiture is sought. App. 2; Soto, 915 F.3d at
681; Silvious, 512 F.3d at 370. The Court should grant
certiorari to resolve the split.

II. The Eighth Circuit disregarded the text of
Federal Rule of Criminal Procedure 32.2(a).
The Court should resolve the split in favor of the
Second Circuit and the text of Rule 32.2(a). Courts
follow the plain meaning of their rules. See City of San
Antonio v. Hotels.com, L.P., 593 U.S. –—, –— (2021)
(slip op., at 5–9). The issue for the Court here is the
meaning of “must not,” “unless,” and “in accordance
with the applicable statute” in Rule 32.2(a):
A court must not enter a judgment of
forfeiture in a criminal proceeding unless
the indictment or information contains
notice to the defendant that the government
will seek the forfeiture of property as part of
any sentence in accordance with the
applicable statute. (Emphases added.)

31
The words mean what they say: a court must not
enter forfeiture unless the indictment gives notice of
the applicable statute. The Eighth Circuit disregarded
that prohibition by affirming the amended forfeiture
order when the indictment did not contain notice that
the government would seek forfeiture “in accordance
with the applicable statute.”
III. The issue is important because Federal Rule
of Criminal Procedure 32.2(a) governs the
many criminal forfeitures in federal court.
Federal Rule of Criminal Procedure 32.2 is titled
“Criminal

Forfeiture.”

It

establishes

rules

the

government must follow before taking property from
its citizens in criminal proceedings. From the notice
the government must give, to the procedure for
preliminary forfeitures, to the procedure for final
forfeitures, Rule 32.2 provides important procedural
safeguards

to

protect

citizens

from

improper

32
forfeitures. Given the many forfeiture proceedings the
government institutes each year and the significant
value of the property and funds involved, this Court’s
clarification of the threshold guarantee of notice in
Rule 32.2(a) is needed.
CONCLUSION
For the foregoing reasons, the Court should grant
the petition under this Court’s Rule 10.

Respectfully submitted,
__________________________________

Brett D. Watson
BRETT D. WATSON, ATTORNEY AT LAW, PLLC
P.O. Box 707
Searcy, Arkansas 72145-0707
(501) 281-2468
watson@bdwpllc.com
Counsel for Petitioner
June 9, 2021

No.
In the

Supreme Court of the United States
ANTHONY LEON WAITS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Eighth Circuit
APPENDIX TO
PETITION FOR WRIT OF CERTIORARI

Appendix A
App. 1

United States Court of Appeals
For the Eighth Circuit
___________________________
No. 19-3382
___________________________
United States of America,
lllllllllllllllllllllPlaintiff - Appellee,
v.
Anthony Leon Waits,
lllllllllllllllllllllDefendant - Appellant.
____________
Appeal from United States District Court
for the Eastern District of Arkansas - Little Rock
____________
Submitted: November 24, 2020
Filed: December 8, 2020
[Unpublished]
____________
Before COLLOTON, SHEPHERD, and KOBES, Circuit Judges.
____________

2 of 3
Appellate Case: 19-3382

Page: 1

Date Filed: 12/08/2020 Entry ID: 4982790

App. 2

PER CURIAM.
Anthony Waits appeals after the district court1 entered an amended order of
forfeiture, following this court’s affirmance of his wire fraud conviction and remand
of the forfeiture issue for further proceedings.
Upon careful review, we conclude that the district court did not err by ordering
forfeiture under 18 U.S.C. § 981(a)(1)(C) and 28 U.S.C. § 2461(c). Although the
indictment cited only 18 U.S.C. § 982, Waits had adequate notice that the government
intended to seek forfeiture. See Fed. R. Crim. P. 32.2(a); United States v. Silvious,
512 F.3d 364, 370 (7th Cir. 2008). Accordingly, we affirm, see 8th Cir. R. 47B, and
deny Waits’s pending motion as moot.
______________________________

1

The Honorable James M. Moody Jr., United States District Judge for the
Eastern District of Arkansas.
-23 of 3
Appellate Case: 19-3382

Page: 2

Date Filed: 12/08/2020 Entry ID: 4982790

Appendix B
App. 3

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
___________________
No: 19-3382
___________________
United States of America
Plaintiff - Appellee
v.
Anthony Leon Waits
Defendant - Appellant
______________________________________________________________________________
Appeal from U.S. District Court for the Eastern District of Arkansas - Little Rock
(4:14-cr-00250-JM-6)
______________________________________________________________________________
JUDGMENT

Before COLLOTON, SHEPHERD, and KOBES, Circuit Judges.

This appeal from the United States District Court was submitted on the record of the
district court and briefs of the parties.
After consideration, it is hereby ordered and adjudged that the order of the district court
in this cause is affirmed in accordance with the opinion of this Court.
December 08, 2020

Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

Appellate Case: 19-3382

Page: 1

Date Filed: 12/08/2020 Entry ID: 4982795

Appendix C
App. 4
Case 4:14-cr-00250-JM Document 362 Filed 08/22/19 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
UNITED STATES OF AMERICA
v.

No. 4:14CR00250-6 JM

ANTHONY LEON WAITS
AMENDED ORDER OF FORFEITURE
The United States moves to amend the order of forfeiture entered against Anthony Leon
Waits (ECF No. 216). The motion is GRANTED.
IT IS HEREBY ORDERED THAT:
1.

As the result of the jury’s determination that Anthony Leon Waits (“Defendant”)

conspired to commit wire fraud, Defendant shall forfeit to the United States, under Title 18, United
States Code, Section 981(a)(1)(C) and Title 28, United States Code, Section 2461(c), a personal
money judgment in the amount of $1,163,134.25, which represents the proceeds traceable to the
conspiracy that Defendant obtained or from which he benefitted.
2.

Upon the entry of this Order, the United States is authorized to conduct any

discovery proper in identifying, locating, or disposing of this money judgment. Fed. R. Crim. P.
32.2(b)(3).
3.

No ancillary proceeding is required because this order of forfeiture only consists of

a money judgment. Fed. R. Crim. P. 32.2(c)(1).
4.

The Court shall retain jurisdiction to enforce this Order and to amend it as

necessary. See Fed. R. Crim. P. 32.2(e). The United States is authorized to execute the money
judgment against any property the Defendant owns. Further the United States may, at any time,
move to amend this Order of Forfeiture to substitute property having a value not to exceed
$1,163,134.25 to satisfy this money judgment in whole or in part. See Fed. R. Crim. P. 32.2(e).

App. 5
Case 4:14-cr-00250-JM Document 362 Filed 08/22/19 Page 2 of 2

SO ORDERED this 22nd day of August 2019.

James M. Moody Jr.
United States District Judge

Appendix D
App. 6

United States Court of Appeals
For the Eighth Circuit
___________________________
No. 17-3399
___________________________
United States of America,
lllllllllllllllllllllPlaintiff - Appellee,
v.
Anthony Leon Waits,
lllllllllllllllllllllDefendant - Appellant.
___________________________
No. 17-3762
___________________________
United States of America,
lllllllllllllllllllllPlaintiff - Appellee,
v.
Jacqueline D. Mills,
lllllllllllllllllllllDefendant - Appellant.
____________
Appeals from United States District Court
for the Eastern District of Arkansas - Little Rock
____________

Appellate Case: 17-3399

Page: 1

Date Filed: 03/29/2019 Entry ID: 4772011

App. 7
Submitted: September 25, 2018
Filed: March 29, 2019
____________

Before COLLOTON, BEAM, and GRASZ, Circuit Judges.
____________
COLLOTON, Circuit Judge.
A jury convicted Anthony Waits and Jacqueline Mills after a trial in a fraud
case. The district court sentenced Waits and Mills to 175 and 150 months’
imprisonment, respectively, and entered forfeiture orders against them. On appeal,
Waits and Mills challenge their convictions, and Waits also challenges his term of
imprisonment and forfeiture order. We affirm the convictions and Waits’s term of
imprisonment. We vacate the forfeiture order against Waits and remand for further
proceedings on that issue.
I.
The United States Department of Agriculture’s Food and Nutrition Service
provides federal funding to after-school and summer programs that serve food to
children in low-income areas. The agency acts through the Child and Adult Care
Feeding Program, which includes an At-Risk Afterschool component, and the
Summer Food Service Program.
In Arkansas, the Department of Human Services administers these programs.
An organization in Arkansas must receive approval from the Department to become
a sponsor who participates in a feeding program. A sponsor may serve snacks or
meals to eligible children and receive reimbursement from the Department for the
food served. As a condition of participation, a sponsor must follow the Department’s

-2-

Appellate Case: 17-3399

Page: 2

Date Filed: 03/29/2019 Entry ID: 4772011

App. 8
regulations governing feeding programs, including those that require keeping and

maintaining records related to the program.
Waits and Mills were convicted of conspiracy to commit wire fraud related to
their involvement with these feeding programs. The jury also found Mills guilty of
multiple substantive counts of wire fraud, bribery of an agent of a program receiving
federal funds, and money laundering.
According to evidence at trial, Mills participated in the programs as a sponsor
and claimed inflated or fabricated reimbursements for more than thirty sites. To
avoid scrutiny of her false claims, she paid money to Department officials in
exchange for approval of her programs and help in avoiding detection. Waits was not
a program sponsor, but he recruited others to become sponsors. Waits helped others
to claim fraudulent reimbursements and to create receipts that supported their false
claims. He then collected a share of the profits of the fraud.
After a jury convicted Waits and Mills, the district court sentenced them to 175
and 150 months’ imprisonment, respectively. The court also ordered Waits to forfeit
a personal money judgment of $3,316,280.85, based on the gross amount that he and
his co-conspirators received from their participation in the conspiracy.
II.
Waits and Mills first argue that the district court erred in rejecting their
proposed theory-of-defense instructions. We review the district court’s rulings for
abuse of discretion. United States v. Christy, 647 F.3d 768, 770 (8th Cir. 2011).
Waits’s proposed instruction stated: “Anthony Leon Waits submits that he did
not voluntarily or intentionally agree or conspire with anyone to commit the crime of
wire fraud. Furthermore, he denies that he had knowledge of any agreement, plan or
-3-

Appellate Case: 17-3399

Page: 3

Date Filed: 03/29/2019 Entry ID: 4772011

App. 9
scheme to commit wire fraud.” The proposal then stated that the burden of proof is

always on the prosecution, and that the jury must acquit Waits if his theory caused
them to have a reasonable doubt.
Mills’s proposed instruction would have informed the jury of her position that
she did not intentionally participate in a scheme to defraud, and that she “relied on
individuals working under her to provide accurate numbers of meals served to
children.” The proffered instruction continued by saying that Mills felt the witnesses
who testified against her had a “personal stake” in the outcome of the case and
testified “in the hopes that they will receive a lessor [sic] prison sentence.”
Two well-established propositions on theory-of-defense instructions are
applicable here. A district court need not adopt a defendant’s proposed instruction
if other instructions given to the jury adequately cover the substance of the requested
instruction. See United States v. Serrano-Lopez, 366 F.3d 628, 637 (8th Cir. 2004).
And a defendant is not entitled to a judicial narrative of her version of the facts, even
though such a narrative might be characterized as a “theory of the defense.” Christy,
647 F.3d at 770.
The substance of Waits’s instruction was adequately covered by other
instructions. The court elsewhere advised the jury of the government’s burden of
proof and the elements of the conspiracy and wire fraud charges. Waits was not
entitled to an instruction that covered essentially the same ground in different words.
Mills’s proposal likewise conveyed information about burden of proof, elements of
the offense, and weighing the credibility of witnesses that was addressed by other
instructions. The portion in which Mills addressed her alleged reliance on employees
amounted to a judicial narrative of her version of the facts that the court was not
obliged to present—especially where the instruction was in tension with Mills’s trial
testimony denying that she blamed her employees. The district court did not abuse
its discretion by refusing the proffered instructions.
-4-

Appellate Case: 17-3399

Page: 4

Date Filed: 03/29/2019 Entry ID: 4772011

App. 10
Mills argues for the first time on appeal that the court erred by failing to

include instructions regarding the testimony of an accomplice or credibility of a
cooperating witness. See 8th Cir. Model Jury Instructions §§ 4.05A, 4.05B. Because
Mills did not object to the omission of these instructions, we review only for plain
error, see United States v. Olano, 507 U.S. 725 (1993), and the district court did not
make an obvious mistake by failing to include these instructions sua sponte. The
suggested instructions address the credibility of accomplices or cooperating witnesses
in a specific way, but the court gave a general instruction about evaluating witness
credibility that was not plainly insufficient to address the topic. The jury was able to
give weight to any concerns about the credibility of accomplices and cooperating
witnesses under the instructions delivered by the court. There was no plain error.
Waits next argues that the district court erred in admitting into evidence a
recording of a conversation between Waits and a co-conspirator named Weeams.
Weeams secretly recorded the conversation during the investigation at the behest of
a federal investigator. Among other things, Waits was heard to make the following
statement to Weeams while discussing the ongoing investigation:
I hope them n*****s don’t say nothing cause if they indict me I’m going
to trial. Swear to God see that’s what they don’t know, I’m going to
trial. And in trial, god damn me, they got to release that information.
They might give me ten, twelve years, fifteen years, but when I get out
I’m gonna knock on the door. (knocking noise) Who is it? Doom,
doom, doom, doom, doom.
Weeams testified that Waits pointed his hand like a gun while saying, “[d]oom, doom,
doom, doom, doom.”
Waits complains that the government violated his Sixth Amendment right to
counsel by recording the conversation, but the right does not attach until a
prosecution is commenced. Texas v. Cobb, 532 U.S. 162, 167-68 (2001). The
-5-

Appellate Case: 17-3399

Page: 5

Date Filed: 03/29/2019 Entry ID: 4772011

App. 11
disputed conversation occurred before the grand jury charged Waits, so the recording

did not interfere with his right to counsel.
Waits also asserts that the district court abused its discretion by refusing to
exclude the quoted statement under Federal Rule of Evidence 403. We accord great
deference to the district court’s balancing of probative value and prejudicial effect,
United States v. Castleman, 795 F.3d 904, 914-15 (8th Cir. 2015), and we see no
abuse of discretion here. The disputed statement, as explained by Weeams, suggests
that Waits threatened harm to anyone who might cooperate against him. Threats
against witnesses are generally admissible to show consciousness of guilt. Id. at 915.
That Waits did not identify any specific witness who might be the subject of his wrath
did not substantially weaken the probative value of the evidence. Evidence that Waits
would retaliate against anyone who helped to convict him was relevant to show the
defendant’s mindset, and the jury reasonably could infer that he was concerned about
witnesses who could implicate him in wrongdoing. The court did not abuse its
discretion by allowing the evidence.
Waits next contends that the district court erred by denying, without a hearing,
his motion for a new trial based on the exposure of jurors to publicity about the case.
There was media coverage during Waits’s trial, including an article in a local
newspaper that discussed evidence that the district court had excluded. After defense
counsel alleged during jury deliberations that jurors had been exposed to prejudicial
publicity, the district court followed the three-step process set forth in Tunstall v.
Hopkins, 306 F.3d 601, 610 (8th Cir. 2002):
[A] federal district court must: 1) determine whether the publicity
creates a danger of substantial prejudice to the accused; 2) if so, poll
jurors individually to see if they were exposed; and 3) if they were
exposed, then ascertain the extent and effect of infection, and determine
what measure must be taken to protect the rights of the accused.

-6-

Appellate Case: 17-3399

Page: 6

Date Filed: 03/29/2019 Entry ID: 4772011

App. 12
The court determined that the newspaper article “could create a danger of
substantial prejudice to Mr. Waits,” so the court polled the jurors to determine
whether they had seen television coverage or read the newspaper article. After one
juror replied in the affirmative, the court excused the other jurors and asked the juror
what she had learned. The juror replied that she saw only video of the lawyers
walking in front of the courthouse. The court determined that the juror’s observations
did not cause prejudice, and allowed the deliberations to proceed.

After the verdicts were returned, Waits moved for a new trial based on the
jury’s exposure to publicity during trial. In addition to relying on one juror’s
admitted exposure to television coverage, he submitted an affidavit from a witness
who averred that she saw two jurors reading a newspaper in their vehicles before
entering the courthouse. The district court denied the motion, finding that Waits had
not demonstrated that he was prejudiced by any juror’s exposure to publicity. The
court credited the juror’s testimony that she did not view anything prejudicial on
television, and no other juror reported seeing any media coverage of the trial. The
court further noted that the jury already had completed a verdict form saying that
Waits was guilty before the testifying juror saw the attorneys on television.
The court did not abuse its discretion in denying the motion for new trial. The
court followed the correct procedure to evaluate the claim of exposure to mid-trial
publicity, and the account of the single juror did not support a finding of prejudice.
The affidavit submitted after trial did not contradict the testimony of other jurors who
denied reading coverage of the proceedings. Waits has not shown that he is entitled
to a new trial.
III.
Waits also challenges the sentence imposed. He contends that the district court
committed procedural error in calculating his advisory sentencing guideline range.
-7-

Appellate Case: 17-3399

Page: 7

Date Filed: 03/29/2019 Entry ID: 4772011

App. 13
We review the district court’s factual findings for clear error, and its interpretation

of the sentencing guidelines de novo. United States v. Rickert, 685 F.3d 760, 767 (8th
Cir. 2012).
Waits first argues that the district court erred in applying a two-level
adjustment for obstruction of justice under USSG § 3C1.1. The sentencing guidelines
provide for the adjustment “[i]f (1) the defendant willfully obstructed or impeded, or
attempted to obstruct or impede, the administration of justice with respect to the
investigation, prosecution, or sentencing.” Id. The commentary includes a
nonexhaustive list of actions that qualify, including when a defendant “threaten[s] .
. . a co-defendant,” “attempt[s] to suborn perjury,” or engages in other conduct
prohibited by obstruction of justice provisions under Title 18. Id., comment. (n.4).
The record supports the district court’s finding that Waits engaged in
obstruction of justice. The recorded conversation and testimony from Weeams
supported a finding that Waits threatened to retaliate against Weeams and other
potential witnesses with his “doom, doom, doom” remark. The threat was
communicated directly to Weeams, and even though Waits did not personally convey
the threat to other conspirators, there was a sufficient basis for the court to infer that
Waits’s statements to Weeams—that other conspirators who testified would face
“doom”—was an attempt by Waits to threaten or intimidate others. See United States
v. Capps, 952 F.2d 1026, 1028-29 (8th Cir. 1991). There was also sufficient evidence
to support a finding that Waits attempted, with consciousness of wrongdoing, to
prevent others from communicating evidence of wrongdoing to law enforcement
officers. See United States v. Gaye, 902 F.3d 780, 788 (8th Cir. 2018); 18 U.S.C.
§ 1512(b). In a recorded conversation, Waits instructed co-conspirator Weeams to
lie to investigators, and another co-conspirator testified that Waits encouraged him
to tell investigators falsely that he “fed the kids” and did everything that he was
supposed to do. In light of this evidence, the district court did not err in applying the
adjustment for obstruction of justice.
-8-

Appellate Case: 17-3399

Page: 8

Date Filed: 03/29/2019 Entry ID: 4772011

App. 14
Waits next challenges the calculation of his criminal history score. He

contends the district court erred by counting prior sentences for two different
offenses—failure to appear in 1997 and battery in 2002—because he was sentenced
for both offenses on the same day. There is no merit to this point, because prior
sentences are counted separately when there is an intervening arrest. See USSG
§ 4A1.2(a)(2). Waits was arrested on the failure to appear charge in 1997, long
before he committed the battery offense in 2002. Thus, even assuming that Waits was
ultimately sentenced for both offenses on the same day, the offenses were separated
by an intervening arrest. Accordingly, the district court properly assessed criminal
history points for both prior sentences.
Waits also challenges the assessment of one criminal history point for a
revocation of probation in Arkansas. He argues that the revocation was invalid
because the state court record does not establish that the State issued a revocation
warrant before his term of probation ended. This argument fails because Waits may
not collaterally attack the state court’s revocation determination in this federal
sentencing proceeding. See Moore v. United States, 178 F.3d 994, 997 (8th Cir.
1999). Waits contends that this court allowed such a collateral attack in United States
v. Gleason, 33 F. App’x 234 (8th Cir. 2002) (per curiam), but he is mistaken. The
question there was whether the defendant committed a prior offense while on
probation. Id. at 235. While this court looked to state law to determine whether the
offender was on probation at the time of the prior offense, there was no collateral
attack on a prior judgment of a state court. Here, an Arkansas state court already
revoked Waits’s probation in 2002, and Waits may not litigate in this case whether
the 2002 revocation was proper. There was thus no error in calculating his criminal
history score.
IV.
Waits next challenges the district court’s order of forfeiture on two grounds.
The first objection, raised for the first time on appeal, is that the district court
-9-

Appellate Case: 17-3399

Page: 9

Date Filed: 03/29/2019 Entry ID: 4772011

App. 15
premised the order on a statute that does not apply. The indictment noticed a claim

of forfeiture under 18 U.S.C. § 982. After trial, the government moved for an order
of forfeiture under § 982(a)(3)(F), and the court ordered forfeiture under that
provision. Section 982(a)(3)(F), however, applies only to offenses that involve a sale
of assets acquired or held by the Federal Deposit Insurance Corporation, the National
Credit Union Administration, or another conservator appointed by the Office of the
Comptroller of the Currency. The assets at issue did not meet those criteria. The
statutes that authorize forfeiture of property traceable to a wire fraud conspiracy, 18
U.S.C. § 981(a)(1)(C) and 28 U.S.C. § 2461(c), were not cited in the government’s
motion or the forfeiture orders.
Waits’s second complaint about the forfeiture order is that the court should not
have included proceeds of the fraud scheme that Waits did not himself acquire.
Citing the intervening decision in Honeycutt v. United States, 137 S. Ct. 1626 (2017),
Waits argues that joint and several liability for proceeds received by co-conspirators
is contrary to the forfeiture statute on which the district court relied. Honeycutt held
that forfeiture under 21 U.S.C. § 853 of “any property constituting, or derived from,
any proceeds the person obtained, directly or indirectly, as the result of” certain drug
crimes is limited to property that the defendant himself acquired. Id. at 1630. Waits
contends that because the district court’s forfeiture order relied on 18 U.S.C.
§ 982(a)(3)(F), and the forfeiture of property under § 982 is governed by the
provisions of 21 U.S.C. § 853, the rationale of Honeycutt applies and precludes joint
and several liability.
The government responds that the incorrect statutory citation does not require
vacating the forfeiture order. The implicit suggestion is that if Waits had objected,
then the government could have amended its motion to cite the correct statutes, and
the district court could have ordered the same forfeiture under those statutes, so Waits
was not prejudiced. See United States v. Silvious, 512 F.3d 364, 369-70 (7th Cir.
2008). On the issue of joint and several liability, however, the government does not
-10-

Appellate Case: 17-3399

Page: 10

Date Filed: 03/29/2019 Entry ID: 4772011

App. 16
urge that Waits failed to preserve the issue or that the question should be analyzed

under the correct forfeiture statutes. The government responds only that Honeycutt
changed the law with respect to joint and several liability, and “agrees that a limited
remand is appropriate to reevaluate Anthony Waits’s forfeiture judgment.” This court
recently held that joint and several liability is available in a forfeiture under
§ 981(a)(1)(C), United States v. Peithman, No. 17-2721, 2019 WL 942825, at *10
(8th Cir. Feb. 27, 2019), but the court has not addressed the issue under
§ 982(a)(3)(F).
Rather than address the propriety of the forfeiture order without adversarial
briefing in a case already complicated by the government’s reliance in the district
court on an incorrect forfeiture statute, we vacate the forfeiture order and remand for
further proceedings on forfeiture. See Ragland v. United States, 756 F.3d 597, 602
(8th Cir. 2014); cf. Lawrence ex rel. Lawrence v. Chater, 516 U.S. 163, 168 (1996).
As the government agrees that the district court should reevaluate the forfeiture order
in the first instance under current law, it is unnecessary to address at this juncture
whether the district court’s reliance on an inapplicable forfeiture statute by itself
would require vacatur. Nor do we resolve whether the availability of joint and
several liability under § 981(a)(1)(C) would be sufficient reason to uphold the
entirety of a forfeiture order that was incorrectly premised on § 982(a)(3)(F). Cf.
United States v. Annabi, 746 F.3d 83, 86 (2d Cir. 2014).
*

*

*

For the foregoing reasons, we affirm the judgment of the district court except
for the forfeiture order as to Waits, and we remand for further proceedings. Mills’s
pro se motion for leave to file a supplemental brief and to supplement the record is
denied.
______________________________

-11-

Appellate Case: 17-3399

Page: 11

Date Filed: 03/29/2019 Entry ID: 4772011

Appendix E
App. 17
Case 4:14-cr-00250-JM Document 277 Filed 10/23/17 Page 1 of 9
AO 245B (Rev. 11/16)

FILED

Judgment in a Criminal Case
Sheet I

U.S. DISTRICT COURT
EASTERN DISTRICT ARKANSAS

UNITED STATES DISTRICT Cou~AMEsw

M
By: ____...__

Eastern District of Arkansas

, CLERK
__,,-+.,,.,..,.,..,.,,,,=

)

UNITED ST ATES OF AMERICA

v.
ANTHONY LEON WAITS

THE DEFENDANT:

)
)
)
)
)
)

Case Number: 4:14CR00250-06 JM

)
)

Defendant's Attomey

USM Number: 29502-009
Willard Proctor, Jr.

0 pleaded guilty to count(s)
0 pleaded nolo contendere to count(s)
which was accepted by the court.

liZI was found guilty on count(s)

Count 1s of Third Superseding Indictment

after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:

Title & Section

18

u.s.c. § 1349

Nature of Offense

Offense Ended

8/30/2014

Conspiracy to commit wire fraud, a Class C felony

The defendant is sentenced as provided in pages 2 through
the Sentencing Reform Act of 1984.

1s

__7_ _ _ of this judgment. The sentence is imposed pursuant to

0 The defendant has been found not guilty on count(s)
liZI Count(s)

Count 1 of 2nd SS Indictment

liZf

is

0 are dismissed on the motion of the United States.

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution,
the defenaant must notify the court and United States attorney of material dianges in econormc circumstances.

James M. Moody, Jr., U.S. District Judge
Name and Title of Judge

IO
Date

I -z_J I

/

/

I

7

App. 18
Case 4:14-cr-00250-JM Document 277 Filed 10/23/17 Page 2 of 9
AO 245B (Rev. I 1/16) Judgment in Criminal Case
Sheet 2 - Imprisonment
Judgment-·· Page

2

of

7

DEFENDANT: ANTHONY LEON WAITS
CASE NUMBER: 4:14CR00250-06 JM

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total
term of:
175 MONTHS

Ill

The court makes the following recommendations to the Bureau of Prisons:

The Court recommends the defendant participate in mental health counseling with an emphasis in domestic violence or anger
management. and educational and vocational programs during incarceration. The Court recommends placement in either the
FCI Forrest City, Arkansas, facility or the FCI Texarkana, Texas, facility so as to remain near his family.

0

The defendant is remanded to the custody of the United States Marshal.

D The defendant shall surrender to the United States Marshal for this district:

D

D

at

D

as notified by the United States Marshal.

---------

D a.m.

D

p.m.

on

The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:

D

before 2 p.m. on

D

as notified by the United States Marshal.

D

as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on

to

a _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ , with a certified copy of this judgment.

UNITED STATES MARSHAL

By .
DEPUTY UNITED STATES MARSHAL

App. 19
Case 4:14-cr-00250-JM Document 277 Filed 10/23/17 Page 3 of 9
AO 245B (Rev. 11/16) Judgment in a Criminal Case
Sheet 3 - Supervised Release
Judgment-Page _ _
3 ___ of

DEFENDANT: ANTHONY LEON WAITS
CASE NUMBER: 4:14CR00250-06 JM

SUPERVISED RELEASE
Upon release from imprisonment, you will be on supervised release for a term of:

THREE (3) YE:A~R~S~---

MANDATORY CONDITIONS
I.
2.
3.

4.
5.

6.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release from
imprisonment and at least two periodic drug tests thereafter, as determined by the court.
D The above drug testing condition is suspended, based on the court's determination that you
pose a low risk of future substance abuse. (check if applicable)
~ You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)
D You must comply with the requirements of the Sex Offender Registration and Notification Act (42 U.S.C. § 16901, et seq.) as
directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in the location where you
reside, work, are a student, or were convicted of a qualifying offense. (check if applicable)
D You must participate in an approved program for domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the attached
page.

App. 20
Case 4:14-cr-00250-JM Document 277 Filed 10/23/17 Page 4 of 9
AO 245B (Rev. 11/16)

Judgment in a Criminal Case
Sheet 3A - Supervised Release
Judgment-Page

DEFENDANT: ANTHONY LEON WAITS
CASE NUMBER: 4:14CR00250-06 JM

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are imposed
because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed by probation
officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1.
2.
3.
4.
5.

6.
7.

8.
9.
10.
11.
12.
13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from the
court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer to
take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted ofa felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that was
designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant without
first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview ofProbation and Supervised
Release Conditions, available at: www.uscourts.gov.

Defendant's Signature

App. 21
Case 4:14-cr-00250-JM Document 277 Filed 10/23/17 Page 5 of 9
AO 245B (Rev. 11/16)

Judgment in a Criminal Case
Sheet 3B - Supervised Release
Judgment-Page ___5__ of

7

DEFENDANT: ANTHONY LEON WAITS
CASE NUMBER: 4:14CR00250-06 JM

ADDITIONAL SUPERVISED RELEASE TERMS
14) The defendant must participate in a domestic violence counseling program under the guidance and supervision of the
probation office. The defendant will pay for the cost of treatment at the rate of $10 per session, with the total cost not to
exceed $40 per month, based on ability to pay as determined by the probation office. If the defendant is financially unable
to pay for the cost of treatment, the co-pay requirement will be waived.
15) The defendant must provide the probation officer with access to any requested financial information (including
unexpected financial gains) and authorize the release of any financial information. The probation office may share financial
information with the U.S. Attorney's Office.
16) The defendant may not incur new credit charges or open additional lines of credit without the approval of the probation
officer unless all criminal penalties have been satisfied.

App. 22
AO 245B (Rev. 11/16)

Case 4:14-cr-00250-JM Document 277 Filed 10/23/17 Page 6 of 9

Judgment in a Criminal Case
Sheet 5 - Criminal Monetary Penalties

Judgment - Page __6__

of

7

DEFENDANT: ANTHONY LEON WAITS
CASE NUMBER: 4:14CR00250-06 JM

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.

Assessment
TOTALS

$ 100.00

JVTA Assessment*

Fine

$ 0.00

Restitution

$ 0.00

$ 3,316,280.85

D The determination of restitution is deferred until _ _ _ _ . An Amended Judgment in a Criminal Case (AO 245C) will be entered
after such determination.

it] The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned _payment, unless specified otherwise in
the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(1), all nonfederal victims must be paid
before the United States is paid.
Name of Payee

Total Loss**

USDNFNS (Lockbox)

Restitution Ordered Priority or Percentage

$3,316,280.85

TOTALS

$

D

Restitution amount ordered pursuant to plea agreement $

D

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(t). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

Ill

The court determined that the defendant does not have the ability to pay interest and it is ordered that:

it] the interest requirement is waived for the
D the interest requirement for the

D

fine

D fine
□

Ill

restitution is modified as follows:

* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.
** Findings for the total amount oflosses are required under Chapters

after September 13, 1994, but before April 23, 1996.

restitution.

I 09 A, 110, 11 OA, and 113A of Title 18 for offenses committed on or

App. 23
AO 245B (Rev. 11/16)

Case
Judgment
in a4:14-cr-00250-JM
Criminal Case
Sheet 6 - Schedule of Payments

Document 277 Filed 10/23/17 Page 7 of 9
Judgment - Page

_7__

of

7

DEFENDANT: ANTHONY LEON WAITS
CASE NUMBER: 4:14CR00250-06 JM

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay, payment of the total criminal monetary penalties is due as follows:
A

ill

Lump sum payment of$

□
□

3,316,380.85

not later than
in accordance with □ C,

due immediately, balance due
, or

□ D,

□ E, or

B

□ Payment to begin immediately (may be combined with

C

D

Payment in equal

D Fbelow; or
□ c,

DD,or

D F below); or

_ _ _ _ _ (e.g., weekly, monthly, quarterly) installments of $ _ _ _ _ _ _ over a period of
_ _ _ _ (e.g., 30 or 60 days) after the date of this judgment; or

(e.g., months or years), to commence

D

D

Payment in equal

_ _ _ _ _ (e.g., weekly, monthly, quarterly) installments of $

(e.g., months or years), to commence

_ _ _ _ _ _ over a period of

_ _ _ _ (e.g., 30 or 60 days) after release from imprisonment to a

term of supervision; or
E

D

Payment during the term of supervised release will commence within _ _ _ _ _ (e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant's ability to pay at that time; or

F

ill

Special instructions regarding the payment of criminal monetary penalties:
Restitution is due immediately, and any unpaid balance will be payable during incarceration. During incarceration,
the defendant will pay 50 percent per month of all funds that are available to him. During residential reentry
placement, payments will be 10 percent of the defendant's gross monthly income. Beginning the first month of
supervised release, payments will be 10 percent per month of the defendant's monthly gross income. The interest
requirement is waived.

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due during
the period of imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons' Inmate
Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

~

Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.
Restitution will be joint and several with any other person who has been or will be convicted on an offense for which
restitution to the same victim on the same loss is ordered.

D

The defendant shall pay the cost of prosecution.

D

The defendant shall pay the following court cost(s):

lil'.i

The defendant shall forfeit the defendant's interest in the following property to the United States:
See attached ORDER OF FORFEITURE entered on 5/4/2017.

Payments shall be applied in the following order: (I) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal, (5) fine
interest, (6) commumty restitution, (7) JVTA assessment, (8) penalties, and (9) costs, mcludmg cost of prosecution and court costs.

App. 24
Case 4:14-cr-00250-JM Document 277 Filed 10/23/17 Page 8 of 9
Case 4:14-cr-00250-JM Document 216 Filed 05/04/17 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
UNITED STATES OF AMERICA

v.

No. 4:14CR00250-6 JM

ANTHONY LEON WAITS

ORDER OF FORFEITURE
IT IS HEREBY ORDERED THAT:
1.

As the result of the jury's determination that Anthony Leon Waits ("Defendant")

conspired to commit wire fraud, Defendant shall forfeit to the United States, under 18 U.S.C. §
982(a)(3)(F), a personal money judgment in the amount of $3,3 I 6,280.85, which represents the
gross receipts Defendant and his co-conspirators received from their participation in the Feeding
Programs.

See Government's Trial Exhibits 58C, 73 through 77; Dorothy Harper Plea

Agreement, Dkt. 190, at 7.
2.

Upon the entry of this Order, the United States is authorized to conduct any

discovery proper in identifying, locating, or disposing of this money judgment. Fed. R. Crim. P.
32.2(b )(3).
3.

This Order of Forfeiture shall become final as to Defendant at the time of

sentencing and shall be made part of the sentence and included in the judgment. Fed. R. Crim.
P. 32.2(b)(4)(A).
4.

No ancillary proceeding is required because this order of forfeiture only consists

ofa money judgment. Fed. R. Crim. P. 32.2(c)(l).
5.

The Court shall retain jurisdiction to enforce this Order and to amend it as

necessary. See Fed. R. Crim. P. 32.2(e). The United States is authorized to execute the money
judgment against any property the Defendant owns. Further the United States may, at any time,

App. 25
Case 4:14-cr-00250-JM Document 277 Filed 10/23/17 Page 9 of 9
Case 4:14-cr-00250-JM Document 216 Filed 05/04/17 Page 2 of 2

move to amend this Order of Forfeiture to substitute property having a value not to exceed
$3,316,280.85 to satisfy this money judgment in whole or in part. See Fed. R. Crim. P. 32.2(e).
SO ORDERED this 4th day of May 2017.

United States District Judge

Appendix F
App. 26
Case 4:14-cr-00250-JM Document 216 Filed 05/04/17 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
UNITED STATES OF AMERICA
v.

No. 4:14CR00250-6 JM

ANTHONY LEON WAITS
ORDER OF FORFEITURE
IT IS HEREBY ORDERED THAT:
1.

As the result of the jury’s determination that Anthony Leon Waits (“Defendant”)

conspired to commit wire fraud, Defendant shall forfeit to the United States, under 18 U.S.C. §
982(a)(3)(F), a personal money judgment in the amount of $3,316,280.85, which represents the
gross receipts Defendant and his co-conspirators received from their participation in the Feeding
Programs.

See Government’s Trial Exhibits 58C, 73 through 77; Dorothy Harper Plea

Agreement, Dkt. 190, at 7.
2.

Upon the entry of this Order, the United States is authorized to conduct any

discovery proper in identifying, locating, or disposing of this money judgment. Fed. R. Crim. P.
32.2(b)(3).
3.

This Order of Forfeiture shall become final as to Defendant at the time of

sentencing and shall be made part of the sentence and included in the judgment. Fed. R. Crim.
P. 32.2(b)(4)(A).
4.

No ancillary proceeding is required because this order of forfeiture only consists

of a money judgment. Fed. R. Crim. P. 32.2(c)(1).
5.

The Court shall retain jurisdiction to enforce this Order and to amend it as

necessary. See Fed. R. Crim. P. 32.2(e). The United States is authorized to execute the money
judgment against any property the Defendant owns. Further the United States may, at any time,

App. 27

Case 4:14-cr-00250-JM Document 216 Filed 05/04/17 Page 2 of 2

move to amend this Order of Forfeiture to substitute property having a value not to exceed
$3,316,280.85 to satisfy this money judgment in whole or in part. See Fed. R. Crim. P. 32.2(e).
SO ORDERED this 4th day of May 2017.

James M. Moody Jr.
United States District Judge

Appendix G
App. 28

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-3382
United States of America
Appellee
v.
Anthony Leon Waits
Appellant

______________________________________________________________________________
Appeal from U.S. District Court for the Eastern District of Arkansas - Little Rock
(4:14-cr-00250-JM-6)
______________________________________________________________________________
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
January 12, 2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

Appellate Case: 19-3382

Page: 1

Date Filed: 01/12/2021 Entry ID: 4993496

Appendix H
App. 29
Case 4:14-cr-00250-JM Document 148 Filed 12/08/16 Page 1 of 14

FILED

U.S. DISTRICT COURT

EASTERN DISTRICT ARKANSAS

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS

)
)
)
)
)
)
)
)

UNITED STATES OF AMERICA

v.
JACQUELINE D. MILLS
DORTHA M. HARPER
a/k/a DOROTHY HARPER
ANTHONY LEON WAITS

4:14CR00250 - JM
18 U.S.C.
18 u.s.c.
18 U.S.C.
18 u.s.c.
18 u.s.c.
18 u.s.c.

§1349
§1343
§666(a)(2)
§1957
§982
§3237

THIRD SUPERSEDING INDICTMENT
THE GRAND JURY CHARGES THAT:
COUNT I
A. INTRODUCTION
At all times material herein:

I.

The Food and Nutrition Service is an agency of the United States Department of

- Agrieulture (''USDA")which administers the ChildNutrition Programs. The Child Nutrition
Programs include the Child and Adult Care Food Program ("CACFP") and the Summer Feeding
Service Program ("SFSP").
2.

The CACFP has an At-Risk Afterschool component which offers federal funding

to afterschool programs that serve a meal and/or snack to children in low-income areas.
3.

The SFSP ensures that children in low-income areas continue to receive nutritious

meals during the summer when school is not in session. The At-Risk Afterschool component of
the CACFP and the SFSP are hereinafter referred to as the "Feeding Programs."
4.

In Arkansas, the Feeding Programs are administered by the Arkansas Department

of Human Services ("DHS").

App. 30
Case 4:14-cr-00250-JM Document 148 Filed 12/08/16 Page 2 of 14

5.

Sponsors are organizations which participate in the Feeding Programs. Public and

private nonprofit and for-profit organizations can participate as Sponsors in the At-Risk
Afterschool component of the CACFP. However, only nonprofit organizations are eligible to
participate as Sponsors in the SFSP. Sponsors seeking to participate in the Feeding Programs
are required to submit an application to DHS for approval. Sponsors are required to obtain DHS
approval for each Site from which they intend to operate the Feeding Programs.
6.

A Site is the location where meals are served under each of the Feeding Programs

during a supervised time period, an:d a Site can include locations such as schools, recreation
centers, playgrounds, parks, churches, community centers, and housing projects.
7.

When Sponsors enter into an agreement with DHS, they acknowledge their

responsibility to oversee the administration of their Feeding Program(s) at their approved Site(s).
8.

Based on guidance published by the USDA, DHS has requirements for persons

who are eligible to receive meals under the Feeding Programs ("Eligible Persons") and for meals
that are eligible to be served under the Feeding Programs ("Eligible Meals").
9.

Based on guidance published by the USDA, Sponsors must keep and maintain

certain records, which include, but are not limited to, daily site records in order to document the
number of Eligible Meals served and documentation of the allowable operating and
administrative costs for the Feeding Programs.
10.

In order to receive reimbursement, Sponsors access the DHS website using their

personalized login information and submit data for their Sites, which include the number of
eligible meals served to generate a reimbursement claim ("Claim"). The amount on each Claim
is based on a straight.,forward calculation ("Claim Amount"). The number of Eligible Meals
served to Eligible Persons is multiplied by a rate established by Congress. Additionally, the
2

App. 31
Case 4:14-cr-00250-JM Document 148 Filed 12/08/16 Page 3 of 14

average daily attendance of each feeding site is calculated by dividing the number of Eligible
Meals served by the number of days in operation ("Average Daily Attendance").
11.

Sponsors must provide a budget with the submission of an application to

participate in each Feeding Program. The budget is made up of Revenues (Claim Amounts),
Operating Expenses (food, food service labor, supplies, rent, maintenance, utilities) and
Administrative Expenses (administrative labor, office rent, office supplies, audit fees,
communication, insurance and legal fees). DHS generally prohibits Sponsors from making
capital expenditures; i.e. vehicles, buildings, and equipment. The Sponsors' budgets are
evaluated and approved by DHS employees.
12.

GLADYS ELISE WAITS, f/k/a GLADYS ELISE KING, (hereinafter KING) and

TONI QUE D. HATTON (hereinafter HATTON) worked for DHS and their responsibilities
included processing applications from Sponsors applying to participate in the Feeding Programs
and determining the eligibility of Sponsors and their proposed Site(s).
13.

ANTHONY LEON WAITS, (hereinafter ANTHONY WAITS) was KING's

husband.
14.

JACQUELINE D. MILLS (hereinafter MILLS) was a Sponsor for the Feeding

Programs through R & J's After-School At-Risk Program (Agreement Number P45) and King
Solomon M.B. Church (Agreement Number TA620), which had approved Sites in cities
including, Blytheville, Cotton Plant, DeValls Bluff, Hazen, Helena, Jonesboro, Marianna,
Marvell, Osceola, West Helena, and West Memphis. MILLS was associated with Lamars Angel
Haven (Agreement Number Pl69) which had approved Sites in Marvell and Wynne, Arkansas.
15.

All three programs as referenced in paragraph 14 above received over

$2,500,000.00 in federal funds from DHS.

3

App. 32
Case 4:14-cr-00250-JM Document 148 Filed 12/08/16 Page 4 of 14

16.

KATTIE LANNIE JORDAN (hereinafter JORDAN) participated as a Sponsor for

the Feeding Programs beginning in June 2012. Jordan was a Sponsor for the Feeding Programs
through Save Our Youth (Agreement Number TA273) and Save Our Community (Agreement
Number P136), which had approved Sites in cities including Dermott, Dumas, Eudora, and Lake
Village, Arkansas.
17.

Both programs as referenced in paragraph 16 above received over $3,500,000.00

in federal funds from DHS.
18.

DORTHA M. HARPER, a/k/a DOROTHY HARPER (hereinafter HARPER) was

a Sponsor for the Feeding Programs through Kingdom Land Youth Outreach Ministries
(Kingdom Land) (Agreement Numbers TA674 and P196), which had approved Sites in cities
including Allport, Altheimer, Coy, England, Humnoke, Keo, Lowell, Scott, Toltec, and Tucker,
Arkansas.
19.

Kingdom Land as referenced in paragraph 18 above received over $1,300,000.00

in federal funds from DHS.
20.

KING and HATTON were responsible for approving MILLS' Feeding Programs,

JORDAN's Feeding Programs and HARPER's Feeding Programs at various times.

B. THECHARGE
From in or about August 2011 to in or about August 2014, in the Eastern District of
Arkansas and elsewhere, the defendants,
JACQUELINE D. MILLS,
DORTHA M. HARPER a/k/a DOROTHY HARPER, and
ANTHONY LEON WAITS

4

App. 33
Case 4:14-cr-00250-JM Document 148 Filed 12/08/16 Page 5 of 14

knowingly and intentionally conspired with GLADYS ELISE WAITS f/k/a GLADYS ELISE
KING, TONIQUE D. HATTON, KATTIE LANNIE JORDAN, each other, and others, known to
the Grand Jury, to devise and participate in a scheme to defraud and for obtaining USDA
program funds by means of materially false and fraudulent pretenses, representations and
promises in violation of Title 18, United States Code, Section 1343.
C. MEANS AND MANNER
As a part of the conspiracy, the following occurred:
1.

MILLS participated as a Sponsor for the Feeding Programs during the school

years 2011-12, 2012-13, and 2013-14 and during the summer months in the years 2012 and
2013.
2.

In MILLS' applications to participate as a Sponsor, she listed Sites where children

would be fed and the maximum number of children that would be fed at each Site.
3.

MILLS made payments by checks to DHS employee HATTON, directly and

indirectly, beginning in or about January 2012, to DHS employee KING, directly and indirectly,
beginning in or about January 2013 and to ANTHONY WAITS directly beginning in or about
April 2013. The checks to ANTHONY WAITS totaled approximately $23,000. In exchange for
these bribe payments, HATTON and KING, knowing that inflated claims would be submitted,
approved the applications containing a specified number of Sites and a maximum number of
children who would be fed at each Site and helped MILLS avoid DHS's detection of the fraud.
4.

During the time MILLS participated in the Feeding Programs, MILLS inflated the

number of Eligible Meals provided, thus claiming more children were fed at her Sites than were
actually fed.

5

App. 34
Case 4:14-cr-00250-JM Document 148 Filed 12/08/16 Page 6 of 14

5.

Because MILLS' applications were approved for a specified nwnber of Sites and

a specified nwnber of children, MILLS' inflated Claims were approved and paid by DHS
without further scrutiny. The Claims were approved because the nwnber of Eligible Meals
submitted for reimbursement did not exceed the nwnber which had been approved in the
applications.
6.

The Claims by MILLS were submitted through the internet and most Claims,

including those set forth below in Counts 2

26, were paid through transfers from the State of

Arkansas which travelled interstate to MILLS' bank account.
7.

Out of the money referenced in paragraph 15, Section A, that MILLS received

from the Feeding Programs, no less than $950,000.00, was transferred to MILLS' personal bank
accounts.
8.

JORDAN participated as a Sponsor for the Feeding Programs during the summer

months in the years 2012, 2013, and 2014 and during the school years 2012-13 and 2013-14.
9.

In JORDAN's applications to participate as a Sponsor, JORDAN listed Sites

where children would be fed and listed the maximwn nwnber of children fed at each Site.
10.

JORDAN made payments by check to DHS employee HATTON, both directly

and indirectly, beginning in or about February 2013, and to DHS employee KING directly
beginning in or about February 2013 and to ANTHONY WAITS directly beginning in or about
June 2013. JORDAN also made cash payments to HATTON and KING prior to making the
payments by check. In exchange for these bribe payments, HATTON and KING, knowing that
inflated claims would be submitted, approved the applications containing a specified nwnber of
Sites and a maximwn nwnber of children who would be fed at each Site and helped Jordan avoid
DHS's detection of the fraud.
6

App. 35
Case 4:14-cr-00250-JM Document 148 Filed 12/08/16 Page 7 of 14

11.

On April 9, 2013, JORDAN made one such payment by check number 1093 in

the amount of$10,000 which was made payable to KING.
12.

On August 31, 2013, JORDAN made one such payment by check number 1287 in

the amount of$8,519.63 which was made payable to HATTON.
13.

On June 24, 2013, JORDAN made one such payment by check number 1283 in

the amount of $8,000 which was made payable to ANTHONY WAITS.
14.

During the time JORDAN participated in the Feeding Programs, JORDAN

inflated the number of Eligible Meals served, thus claiming more children were fed at the Sites
than were actually fed.
15.

Because JORDAN's applications were approved for a specified number of Sites

and a specified number of children, JORDAN's inflated Claims were approved and paid by DHS
without further scrutiny. The Claims were approved because the number of Eligible Meals
submitted for reimbursement did not exceed the number which had been approved in the
applications.
16.

The Claims by JORDAN were submitted through the internet and most Claims

were paid through transfers from the State of Arkansas which travelled interstate to JORDAN' s
bank account.
17.

HARPER participated as a Sponsor for the Feeding Programs during the 2013

summer months and the 2013-2014 school year.
18.

In HARPER's applications to participate as a Sponsor, she listed Sites where

children would be fed and the maximum number of children that would be fed at each Site.
19.

HARPER made payments by cash to ANTHONY WAITS. In exchange for these

bribe payments, KING, knowing that inflated claims would be submitted, approved the
7

App. 36
Case 4:14-cr-00250-JM Document 148 Filed 12/08/16 Page 8 of 14

applications containing a specified number of Sites and a maximum number of children who
would be fed at each Site and helped HARPER avoid DHS's detection of the fraud.
20.

During the time HARPER participated in the Feeding Programs, HARPER caused

inflated numbers of Eligible Meals provided to be submitted to DHS, thus claiming more
children were fed at her Sites than were actually fed.
21.

Because HARPER's applications were approved for a specified number of Sites

and a specified number of children, HARPER's inflated Claims were approved and paid by DHS
without further scrutiny. The Claims were approved because the number of Eligible Meals
submitted for reimbursement did not exceed the number which had been approved in the
applications.
22.

The Claims were submitted through the internet and most Claims, including those

set forth below in Counts 27-41, were paid through transfers from the State of Arkansas which
travelled interstate to HARPER's bank account.
23.

Out of the money referenced in paragraph 19, Section A, which HARPER

received from the Feeding Programs, there were personal financial transactions totaling over
$850,000 which included cash withdrawals, transfers to personal accounts, checks written to
HARPER and HARPER's family members and purchases of cashier's checks.
24.

ANTHONY WAITS recruited additional Sponsors to participate in the Feeding

Programs who received payments for inflated claims. These Sponsors provided a percentage of
the money received from the Feeding Programs to ANTHONY WAITS. Those Sponsors'
applications were approved by KING.
All in violation of Title 18, United States Code, Sections 1349 and 3237.

8

App. 37
Case 4:14-cr-00250-JM Document 148 Filed 12/08/16 Page 9 of 14

COUNTS 2-26
Paragraphs 1 20 of Section A, Count 1, and Paragraphs 1 - 7 of Section C, Count 1, are
hereby realleged and incorporated as though set forth in full herein.
Between in or about August 2011 and in or about August 2014, in the Eastern District of
Arkansas, the defendant,
JACQUELINE D. MILLS,
with intent to defraud, voluntarily and intentionally devised and participated in the above
described scheme to defraud and to obtain money by means of false and fraudulent pretenses and
representations, and for the purpose of executing the scheme, caused wire communications to be
transmitted in interstate commerce on or about the dates as set forth below, that is, transfers from
the State of Arkansas which travelled interstate to MILLS' bank accounts in the approximate
amounts as follows:
Count

Date

Amount of Deposit

2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18

12/18/2011
05/06/2012
05/20/2012
06/03/2012
07/08/2012
10/21/2012
10/28/2012
11/04/2012
11/18/2012
12/09/2012
01/13/2013
02/17/2013
03/24/2013
05/12/2013
07/07/2013
08/04/2013
11/03/2013

$202,631.25
$46,919.08
$106,586.20
$114,385.65
$151,431.81
$17,597.13
$13,432.35
$93,051.99
$82,281.06
$78,120.41
$86,626.12
$121,185.97
$115,209.97
$147,618.48
$113,500.30
$113,515.29
$27,732.59
9

Amount of Claim(s) for
Feedin,z Pro,zrams
$202,631.25
$46,919.08
$106,586.20
$114,385.66
$151,431.83
$17,597.13
$13,432.35
$93,051.99
$82,281.07
$78,120.42
$86,626.12
$121,185.98
$115,209.97
$147,618.49
$113,500.31
$113,515.29
$27,732.59

App. 38
Case 4:14-cr-00250-JM Document 148 Filed 12/08/16 Page 10 of 14

19
20
21
22
23
24
25
26

12/08/2013
01/05/2014
01/12/2014
03/16/2014
04/27/2014
05/04/2014
06/01/2014
06/22/2014

$95,430.46
$208,268.34
$83,756.89
$129,679.08
$113,740.93
$9,340.83
$122,369.12
$99,964.15

$84,796.95
$198,857.22
$83,756.89
$117,947.22
$103,325.76
$9,340.83
$113,890.72
$99,964.16

All in violation of Title 18, United States Code, Section 1343.

COUNTS 27 -41
Paragraphs 1-20 of Section A, Count 1, and Paragraphs 17-23 of Section C, Count 1, are
hereby realleged and incorporated as though set forth in full herein.
Between in or about the June 2013 and August 2014, in the Eastern District of Arkansas,
the defendant,
DORTHA M. HARPER, a/k/a DOROTHY HARPER
with intent to defraud, voluntarily and intentionally devised and participated in the above
described scheme to defraud and to obtain money by means of false and fraudulent pretenses and
representations, and for the purpose of executing the scheme, caused wire communications to be
transmitted in interstate commerce on or about the dates as set forth below, that is, transfers from
the State of Arkansas which travelled interstate to HARPER's bank account in the approximate
amounts as follows:

Count

Date

Amount of Deposit

27
28
29
30

07/07/2013
07/14/2013
07/21/2013
07/28/2013

$46,968.79
$37,988.52
$47,970.04
$51,093.40
10

Amount of Claim(s) for
Feedin2 Pro2rams
$46,968.79
$37,988.52
$47,970.04
$51,093.40

App. 39
Case 4:14-cr-00250-JM Document 148 Filed 12/08/16 Page 11 of 14

31
32
33
34
35
36
37
38
39
40
41

08/04/2013
08/11/2013
08/18/2013
08/25/2013
12/15/2013
01/05/2014
02/09/2014
03/09/2014
04/13/2014
05/11/2014
08/03/2014

$50,326.67
$58,212.87
$41,943.61
$35,287.19
$147,147.44
$68,032.16
$99,114.01
$128,583.13
$104,487.16
$135,151.51
$126,055.05

$50,326.67
$58,212.87
$41,943.61
$35,287.19
$147,147.45
$68,032.17
$99,114.01
$128,583.14
$104,487.17
$135,151.51
$126,055.07

All in violation of Title 18, United States Code, Section 1343.
COUNT42
Paragraphs 1 - 20 of Section A, Count 1, and paragraphs 1 - 7 of Section C, Count 1, are
hereby realleged and incorporated as though set forth in full herein.
On or about the date set forth below, in the Eastern District of Arkansas, the defendant,
JACQUELINE D. MILLS,
corruptly gave, offered, and agreed to give a thing of value to any person intending to influence
and reward GLADYS ELISE KING, a DHS employee, in connection with a transaction and
series of transactions of DHS, an agency of a state government that received federal assistance in
excess of $10,000 during the calendar year 2013, involving $5,000 or more as follows:
Count

Date

Check No.

Amount(Approx.)

Memo

42

03/13/2013

[BLANK]

$7,000.00

Supplies

All in violation of Title 18, United States Code, Section 666(a)(2).

11

App. 40
Case 4:14-cr-00250-JM Document 148 Filed 12/08/16 Page 12 of 14

COUNTS 43-51
Paragraphs 1

22 of Section A, Count 1, and paragraphs 1 - 7 of Section C, Count 1, are

hereby realleged and incorporated as though set forth in full herein.
On or about the dates set forth below, in the Eastern District of Arkansas, the defendant,
JACQUELINE D. MILLS,
corruptly gave, offered, and agreed to give a thing of value to any person, both directly and
indirectly, to wit, checks made payable to TONIQUE D. HATTON and to a third party for her
benefit, intending to influence and reward TONIQUE D. HATTON, a DHS employee, in
connection with a transaction and series of transactions ofDHS, an agency of a state government
that received federal assistance in excess of $10,000 during calendar years 2012 and 2013,
involving $5,000 or more as follows:
Count

Date

Check No.

Amount( Approx.)

Memo

43

01/10/2012

2266

$9,890.00

Furniture

44

01/11/2012

2267

$9,980.00

[Blank]

45

02/11/2013

2393

$7,000.00

Dec

46

02/11/2013

[BLANK]

$5,000.00

Supplies-set-up Jan

47

02/11/2013

[BLANK]

$5,000.00

Jan Supplies/Food

48

03/13/2013

[BLANK]

$8,500.00

At-Risk Materials for Building

49

05/25/2013

1059

$16,000.00

Furniture/Set-up

50

08/20/2013

3002

$5,000.00

Gutters/House Painting

51

08/30/2013

2448

$5,900.00

[BLANK]

All in violation of Title 18, United States Code, Section 666(a)(2).

12

App. 41
Case 4:14-cr-00250-JM Document 148 Filed 12/08/16 Page 13 of 14

COUNTS 52-54
Paragraphs 1 - 20 of Section A, Count 1, and paragraphs 1 - 7 of Section C, Count 1, are
hereby realleged and incorporated as though set forth in full herein.
On or about the dates set forth below, in the Eastern District of Arkansas,
JACQUELINE D. MILLS,
the defendant, knowingly engaged and attempted to engage in monetary transactions affecting
interstate commerce, that is, transfers by, through and to a financial institution, the deposits of
which were insured by the Federal Deposit Insurance Corporation, of criminally derived property
of a value greater than $10,000.00, such property having been derived from the specified
unlawful activity of wire fraud as set forth in Count 2 as follows:
COUNT

DATE

AMOUNT

PAYEE

52

12/30/2011

$202,631.25

MILLS

53

02/17/2012

$70,820.00

MILLS

54

02/17/2012

$50,000.00

Purchase of a Certificate of Deposit

All in violation of Title 18, United States Code, Section 1957.

FORFEITURE ALLEGATION NO. 1
Upon conviction of Counts 1 - 26 of this Third Superseding Indictment, the defendant,
JACQUELINE D. MILLS, shall forfeit to the United States, under 18 U.S.C. § 982, all property,
real or personal, that represents .or is traceable to the gross receipts obtained, directly or
indirectly, as a result of such violation to include but is not limited to the following:
1.

The property and residence located at 648 Beechwood Drive, Helena, Arkansas;

13

App. 42
Case 4:14-cr-00250-JM Document 148 Filed 12/08/16 Page 14 of 14

2. The property, residence and vacant lot located at 430 St. Jean Drive, West Helena,
Arkansas.

FORFEITURE ALLEGATION NO. 2
Upon conviction of Counts 52 - 54 of this Third Superseding Indictment, the defendant,
JACQUELINE D. MILLS, shall forfeit to the United States, under 18 U.S.C. § 982, all property,
real or personal, involved in such offense, or any property traceable to such property, as a result
of such violation.

FORFEITURE ALLEGATION NO. 3
Upon conviction of Counts 1, 27 -41 of this Third Superseding Indictment, the
defendant, DORTHA M. HARPER a/k/a DOROTHY HARPER, shall forfeit to the United
States, under 18 U.S.C. § 982, all property, real or personal, that represents or is traceable to the
gross receipts obtained, directly or indirectly, as a result of such violation.

FORFEITURE ALLEGATION NO. 4
Upon conviction of Count 1 of this Third Superseding Indictment, the defendant,
ANTHONY LEON WAITS, shall forfeit to the United States, under 18 U.S.C. § 982, all
property, real or personal, that represents or is traceable to the gross receipts obtained, directly or
indirectly, as a result of such violation.

(End of text. Signature page to follow.)

14

